<html>
<title> - PROTECTING U.S. SOVEREIGNTY: COAST GUARD OPERATIONS IN THE ARCTIC</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                      PROTECTING U.S. SOVEREIGNTY:

                  COAST GUARD OPERATIONS IN THE ARCTIC

=======================================================================

                                (112-63)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 1, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/

        committee.action?chamber=house&committee=transportation





                  U.S. GOVERNMENT PRINTING OFFICE
71-416                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman
DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                               Panel One

Papp, Admiral Robert, Commandant, United States Coast Guard......     6
Treadwell, Hon. Mead, Lieutenant Governor, State of Alaska.......     6

                               Panel Two

Caldwell, Stephen L., Director, Homeland Security and Justice, 
  Government Accountability Office...............................    27
Falkner, Dr. Kelly, Deputy Director, Office of Polar Programs, 
  National Science Foundation....................................    27
Garrett, Rear Admiral Jeffrey M., United States Coast Guard 
  (Retired)......................................................    27
Whitcomb, Dave, Chief Operating Officer, Vigor Industrial, on 
  behalf of the Shipbuilders Council of America..................    27

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Caldwell, Stephen L., Director, Homeland Security and Justice, 
  Government Accountability Office...............................    38
Falkner, Dr. Kelly, Deputy Director, Office of Polar Programs, 
  National Science Foundation....................................    79
Garrett, Rear Admiral Jeffrey M., United States Coast Guard 
  (Retired)......................................................    84
Papp, Admiral Robert, Commandant, United States Coast Guard......    86
Treadwell, Hon. Mead, Lieutenant Governor, State Of Alaska.......    92
Whitcomb, Dave, Chief Operating Officer, Vigor Industrial, on 
  behalf of the Shipbuilders Council of America..................   103

                       SUBMISSION FOR THE RECORD

Caldwell, Stephen L., Director, Homeland Security and Justice, 
  Government Accountability Office, responses to questions from 
  Hon. Rick Larsen, a Representative in Congress from the State 
  of Washington..................................................    68

                        ADDITIONS TO THE RECORD

Edison Chouest Offshore, Inc., written statement.................   108
Philemonoff, Ron, Chief Executive Officer, Tanadgusix 
  Corporation, written statement.................................   113
[GRAPHIC] [TIFF OMITTED] 71416.001

[GRAPHIC] [TIFF OMITTED] 71416.002

[GRAPHIC] [TIFF OMITTED] 71416.003

[GRAPHIC] [TIFF OMITTED] 71416.004

[GRAPHIC] [TIFF OMITTED] 71416.005

[GRAPHIC] [TIFF OMITTED] 71416.006

[GRAPHIC] [TIFF OMITTED] 71416.007

[GRAPHIC] [TIFF OMITTED] 71416.008

[GRAPHIC] [TIFF OMITTED] 71416.009

[GRAPHIC] [TIFF OMITTED] 71416.010



                      PROTECTING U.S. SOVEREIGNTY:



                  COAST GUARD OPERATIONS IN THE ARCTIC

                              ----------                              


                       THURSDAY, DECEMBER 1, 2011

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:00 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Frank LoBiondo 
(Chairman of the subcommittee) presiding.
    Mr. LoBiondo. The subcommittee will come to order. The 
subcommittee is meeting this morning to review Coast Guard 
operations in the Arctic. As we all know, the ice caps are 
shrinking in the Arctic, effectively creating new coastline and 
navigable waters where the Coast Guard will be required to 
operate.
    This opening is already providing significant economic 
opportunities for the energy and maritime transportation 
sectors, but also has exposed a new set of risks and challenges 
to our national security and sovereignty. The subcommittee has 
been talking about the Arctic for years, and has continuously 
advocated for increased polar capabilities. However, the Coast 
Guard's ability to respond to emerging threats and emergencies 
in the Arctic is less today than it has been at any point in 
the last 50 years.
    Neither of the Polar Icebreakers is currently operational, 
though the taxpayer is spending millions of dollars a year to 
maintain those ships in a caretaker status. It is time that we 
stop wasting money on old, ineffective assets, and focus 
instead on acquiring assets that will provide the capabilities 
we need to continue to increase our foothold in the Arctic.
    What we really need is to have an honest national 
conversation about what we want our involvement in the Arctic 
to be, and what we need to do to maintain that presence. We 
will continue to ask for, beg for, plead for, wait for a 
coherent Arctic vision from the administration and a subsequent 
resource proposal, because having a vision and having a 
proposal without the resources is not going to go very far.
    Again, I firmly believe that we need to be protecting our 
national interest in the Arctic, and hope that the 
subcommittee's actions will draw light to this increasingly 
important and urgent issue.
    I would like to thank Admiral Papp and Mr. Treadwell for 
being here today. But first I would like to turn it over to Mr. 
Larsen.
    Mr. Larsen. Thank you, Mr. Chairman, and thank you for 
scheduling this morning's hearing to assess the capabilities of 
the U.S. Coast Guard's ability to maintain and protect the 
sovereign interests of the United States in the Arctic.
    Before I begin my remarks, I want to take a moment to 
welcome, actually, three of our witnesses who have traveled 
quite some ways to get here. The first two from Washington 
State, Rear Admiral Jeff Garrett, who will be on the second 
panel, U.S. Coast Guard (retired), served with distinction as 
the CO of the Coast Guard icebreakers Polar Sea and Healy, and 
was involved in polar icebreaking deployments throughout the 
eastern and western Arctic and Antarctica. So, we welcome 
Admiral Garrett. And, I am sure his many years of experience 
will shed some helpful insights on our issue.
    Also, I want to thank and welcome Mr. David Whitcomb, vice 
president for production support of Vigor Industrial. Vigor 
Industrial recently acquired the former Todd Pacific Shipyards 
in Seattle, which for years maintained the Coast Guard's fleet 
of icebreakers. I want to thank Mr. Whitcomb for participating, 
and I look forward to an update from him on the status and pace 
of repairs to the Polar Star.
    Also, just an added note here to my comments, I want to 
thank Lieutenant Governor Treadwell here. And if you could, 
pass on my greetings to my former resident assistant at Pacific 
Lutheran University known only then as Sean Parnell, who is now 
Governor Sean Parnell of Alaska. Please express my greetings to 
the Governor. I appreciate that very much.
    Mr. Chairman, in reflecting on this morning's topic, it is 
hard for me to recall another instance where the solution to a 
policy problem has been so apparent, yet the reaction of the 
Congress is so contrary or unresponsive. I may not know the 
precise definition of the word ``irony,'' but scheduling a 
hearing to discuss the Coast Guard capabilities in the Arctic 
less than 3 weeks after the House passed legislation that would 
decommission the Coast Guard's two heavy icebreakers seems 
ironic to me.
    It has been the policy of the U.S. since 1965 for the U.S. 
Coast Guard to develop, establish, maintain, and operate the 
U.S. icebreaking fleet in each polar region. Anyone who has 
looked at this issue over the years has come to the same 
conclusion: we need to invest now in new heavy icebreakers, or 
face a sharply diminished presence in the Arctic and Antarctic.
    As our Nation's primary Federal maritime agency, the Coast 
Guard has played and will continue to play a significant role 
in Arctic policy implementation and enforcement, while also 
fulfilling its other mission responsibilities for search and 
rescue operations, maritime safety, scientific research, and 
environmental protection.
    I want to commend Commandant Papp for his efforts to stay 
the Service and to maintain and enhance the Coast Guard's 
operational capabilities in these very challenging budgetary 
times.
    Due to the extreme operating environments found at high 
latitudes, the Coast Guard icebreakers serve as a mobile, 
multimission operating platform. This has enabled the Coast 
Guard to project U.S. global leadership and to protect our 
national security and economic interests in the Arctic and 
Antarctic. And, by all accounts, the Coast Guard's use of 
icebreakers has served the Nation very well, until recently.
    As far back as October 1990, Polar Icebreaker requirements 
report the handwriting has been on the wall. If we are going to 
maintain a reliable presence in the high north, we must make 
the necessary investments to sustain an icebreaker fleet. 
Fortunately, the Coast Guard responded positively to this 
report, and provided the appropriations necessary to build and 
launch the Coast Guard icebreaker Healy in 1999. Regrettably, 
the declining condition of both Coast Guard heavy icebreakers, 
the Sea and the Star, each of which have exceeded their 30-year 
life expectancies, has failed to generate a similar response 
from Congress, and no new funding for recapitalization of 
icebreakers is on the horizon.
    Instead, over the past several years the Congress has 
received multiple reports from the Government Accountability 
Office, the Department of Homeland Security's inspector 
general, the National Research Council, the Coast Guard, and 
other agencies that make basically the same recommendations as 
in the 1990 report: We need to invest now in new heavy 
icebreakers, or lose our capabilities to operate in the Arctic 
and Antarctic.
    What I find especially frustrating is that this comes at 
precisely the same time other nations, including Russia, China, 
Norway, Korea are rushing to build new icebreakers to stake 
their claims in this emerging area in the Arctic. It is absurd 
for us in Congress to maintain that Coast Guard can do more 
with less when the best minds in our Nation have, for years, 
recommended, if not admonished, the Congress to do one thing to 
protect our national interests in the Arctic: invest in new 
heavy icebreakers.
    Instead, as I mentioned earlier, we have passed legislation 
to decommission our two heavier icebreakers within the next 3 
years, an idea which I believe is misguided, for which the 
administration has forcefully and rightfully stated its strong 
opposition. However, I also note the administration has not 
provided us a plan for how to fund new icebreakers.
    The bottom line is that we can't afford to outsource the 
Coast Guard's icebreaking mission to any country. Considering 
that it will take anywhere between 8 to 10 years to plan, 
design, and build a new heavy icebreaker, we had best initiate 
a discussion now with our colleagues in the Senate, the 
administration, the Coast Guard, and other Federal agencies to 
reach agreement on a long-term strategy to provide not only new 
heavy icebreakers, but also the other infrastructure 
investments that are going to be absolutely necessary to 
support Coast Guard operations above the Arctic Circle.
    We either choose to address this challenge or we risk 
losing a critical foothold necessary to maintain U.S. 
sovereignty in an Arctic frontier of emerging global economic 
importance. Too much is at stake to remain complacent, and we 
need to act.
    With that, I yield back.
    Mr. LoBiondo. Thank you, Mr. Larsen. I would just like to 
say I--trying to find the right word to say for your comment of 
ironic, which I guess it is. But maybe more so, sad. And I 
welcome your efforts to use your considerable influence and 
power with the administration to get some articulated, you 
know, view of policy and, maybe more importantly, the resources 
to go with it.
    I think we are more in agreement on this issue than in 
disagreement. But I would have loved to have had something 
substantive to move with. And I appreciate your concern and 
interest. You have got, I think, a unique perspective on it.
    Mr. Larsen. Thank you, Mr. Chairman. You will note my 
comments here, as well as my comments on the floor during the 
debate on the Coast Guard bill, that not only did the 
administration oppose the Coast Guard bill because of the 
decommissioning language, but I also noted on the floor as 
well, as I noted here today, that they have as well failed to 
provide a funding plan about--with regards to icebreakers.
    So, I do think we have a--we are pretty close in agreement 
on this, but we need to flush these things out, which is the 
importance of this hearing today, and I appreciate you 
scheduling this.
    Mr. LoBiondo. And now to give us the answer to put it over 
the top, Mr. Young of Alaska.
    [Laughter.]
    Mr. Young. Thank you, Mr. Chairman. I can't really top 
what's been said. But I am the only real representative of the 
Arctic in Congress. I say this with a great deal of pride. I 
live above the Arctic Circle. And Alaska has made the United 
States an Arctic nation. I think that is crucially important.
    What has been said here is--by both you and the ranking 
member, that this is our waters, 200 miles out for sure. And 
then it becomes international waters, and there is where the 
interests of China and Russia and--actually, there are five 
nations involved, and we are fifth of the five being, you know, 
involved.
    And as far as Admiral Papp--this is not your fault, it is 
Congress' fault. It is hard to get Congress to concentrate on 
what is necessary for the future. They have no vision, as far 
as the need and the necessity of the Coast Guard involvement 
because of the Arctic. The shipping route was mentioned, the 
icebreaker necessity. And we will be able to, I believe--in the 
near future be able to ship things much cheaper with that route 
than you would with the Panama Canal. We look at cost of fuel, 
et cetera.
    But we sit here--and we can argue about the Coast Guard 
capability. I was involved in the funding of the first--the 
three Coast Guard icebreakers we had. And they're wore out. And 
they are really not heavy icebreakers. They are--I call medium 
icebreakers, not heavy icebreakers. I think we have to look at 
all aspects of getting icebreaking capability, including 
leasing, and I will say that again and again. Buy-in, if we can 
get this Congress to recognize it. But this Congress has to 
come to the plate. We would like to get a recommendation from 
this administration and future administrations. And the past 
administrations failed us, too.
    And so, this is very, very important. We are supposedly the 
most powerful country in the world. And yet we are neglecting 
the one, I think, bright spot, because I know in my State we 
have tremendous potential for minerals and necessary things 
that we are importing now that have been locked up because of 
the ice. And then, consequently, now it will be free. But we 
need the navigation capability.
    Admiral, you know, because of the closeness to the Pole a 
lot of GPSs don't work correctly. There is a lot of other 
problems of navigation. And we have to start looking at the 
whole program.
    And as far as I know, there is no oil spill that knows 
borders. And China is involved, Russia is involved, Canada is 
involved, Iceland is involved. And they are drilling in the 
Arctic--which in fact, if they had a spill--with no safeguards 
at all. And that could--and it will cross into our borders, and 
potentially do us great damage.
    So, I think we should be more aggressive, Mr. Chairman. I 
compliment you and the ranking member on the interest not only 
in the Arctic, but the Coast Guard. But that Congress, as a 
whole--you mention Coast Guard, and they roll their eyes. And I 
think that is so very, very unfortunate. Because the Arctic is 
the future of this Nation.
    So I look forward to the witnesses today, and get some 
reports from them and urge both the admirals and the Coast 
Guard to come out with a program.
    And if you can't do it, we should be able to do it as a 
Congress, and I expect the chairman to help us do this, and get 
our leadership to understand if we are going to go ahead and 
cut back on the military, let's not be cutting back on the 
Coast Guard. Because that will be--as they have been in the 
past--an active unit of our military that is working 
constantly, not only for search and rescue, but for the 
development of our resources.
    And with that, I yield back my time.
    Mr. LoBiondo. Mr. Landry?
    Mr. Landry. Thank you, Mr. Chairman. Admiral, Lieutenant 
Governor, thank you for being here. I know it seems odd that a 
congressman from South Louisiana who probably sees water freeze 
maybe once every 5 years would be interested in this particular 
topic, but you know, I grew up at a time when America and 
Congress did big things, and the people that served in Congress 
were titans. We led. Frontiers were things that challenged us.
    And, you know, we sent a man to the moon, we built an 
interstate system, we brought Alaska into the union. We built a 
fleet of space shuttles. We did big things. And, you know, we 
can still do big things. Under this current fiscal environment 
we still are required to lead. We still should be challenged by 
those frontiers. But we must have an eye on fiscal management.
    And so, we have worked on legislation in this Congress that 
would allow us to continue to have icebreaking presence, even 
after the decommissioning of the Polar Sea and Polar Star, by 
directing the Coast Guard to use private leases to supply these 
vessels. This isn't a foreign idea. I mean how many times has--
you know, that is why we have--in this country have a long 
history of supporting our maritime industry, because we 
recognize that the Government could not always supply the needs 
on a constant basis. And so we supported our private maritime 
fleet.
    And so, I look forward to trying to come up with a solution 
to increase our icebreaking capabilities. And I know, Admiral 
Papp, that with your guidance and some input from this Congress 
from both sides of the aisle, we can come up with a solution, 
even under the fiscal environment that we find ourselves in.
    And so, I look forward to hearing the questions that the 
Members have, and answers that you will provide. And with that, 
Mr. Chairman, I yield back.
    Mr. LoBiondo. Thank you. Admiral Papp, thank you for 
joining us today. The floor is yours.

  TESTIMONY OF ADMIRAL ROBERT PAPP, COMMANDANT, UNITED STATES 
  COAST GUARD; AND HON. MEAD TREADWELL, LIEUTENANT GOVERNOR, 
                        STATE OF ALASKA

    Admiral Papp. Thank you, Chairman LoBiondo and Ranking 
Member Larsen, and all the other distinguished members of the 
subcommittee. Thanks for the opportunity to appear here today, 
and for your continued support of our Coast Guard, especially 
our hard-working Coast Guard men and women.
    As you have noted, America is a maritime nation. The United 
States relies upon the sea for our prosperity, our trade, our 
transportation, and security. And, as also was noted, we are an 
Arctic nation. The Arctic region, including the Beaufort, 
Chukchi, and Bering Seas, and the Arctic Ocean, is truly an 
emerging maritime frontier.
    Although the northern part of the Arctic has remained 
frozen much of our lifetimes, change is clearly occurring. 
Arctic ice is gradually diminishing. And in the summer months, 
an entire new ocean is emerging. This accessibility is spurring 
an increase in human activities such as natural resource 
exploration, shipping, and eco-tourism.
    Similar to the rest of U.S. waters, the safety, security, 
and stewardship of the Arctic region impacts every American. 
Indeed, the Arctic contains an estimated 22 percent of the 
world's technically recoverable oil and natural gas. The Shell 
Exploration and Production Company plans to drill exploratory 
wells in the Chukchi Sea and Beaufort Sea beginning in 2012. 
Other companies will likely follow.
    For more than 221 years, our Nation has relied upon the 
U.S. Coast Guard to protect those on the sea, to protect the 
country against threats delivered by the sea, and even to 
protect the sea, itself. Our challenge today is to ensure we 
are working to develop a Coast Guard capable of meeting our new 
and emerging responsibilities in the Arctic region as capably 
as we have performed our long-established missions in existing 
areas of operation.
    As with any new endeavor, posturing our forces to do so 
presents challenges, risks, but perhaps a few opportunities, as 
well. Today, based upon what we have learned, I am pleased to 
offer you my best military advice on our Arctic operational 
needs. Before I do so, however, I must tell you that I am 
concerned by the recent authorization language passed by the 
House that ties my hands in some ways and limits my ability to 
move the Coast Guard forward on all mission fronts, including 
those emerging in the Arctic.
    My first concern is the mandate to decommission Polar Star. 
This provision would eliminate the Nation's only existing heavy 
icebreaking capability as soon as 2 years after the Polar 
Star's reactivation in 2013, and after Congress has invested 
over $60 million to extend the Cutter's service life. 
Admittedly, keeping this 30-plus-year-old ship running is a 
challenge for all of us, and it is not a long-term solution for 
our Nation's heavy icebreaking needs. But while I can 
understand the desire to accelerate a solution, I don't see an 
alternative source of U.S. heavy icebreaking capability that 
could be made available within the next 3 years. Thus, this 
mandate puts us in a position of confronting expanding Arctic 
missions without a heavy icebreaker.
    We have weathered the last couple of years without an 
active heavy icebreaker, but I strongly recommend against 
making this a permanent solution. And I urge reconsideration of 
this provision in conference.
    My second concern is the authorization's bill mandates 
constraining our ability to procure the National Security 
Cutters, just as we have stabilize costs and matured their 
design. While I understand and share the committee's desire to 
deliver the most capable and effective replacement for the 12 
High Endurance Cutters, I cannot see how technically 
challenging and disruptive performance milestones help us to 
achieve that.
    The National Security Cutter is a stable and successful 
acquisition program now managed by some of the best acquisition 
professionals in the Federal Government. This legislation risks 
disrupting the production schedule, raising costs, and 
jeopardizing the entire national security project. And I will 
state here today that the National Security Cutter is more 
important to me, in terms of carrying out Coast Guard missions 
in Alaska, than an icebreaker. But we still need an icebreaker, 
as well.
    In sum, it is my judgement and advice to you that the Polar 
Star must be kept as part of the heavy icebreaker bridging 
strategy for the next 5 to 10 years, and that the National 
Security Cutter shipbuilding program momentum must be 
maintained.
    Now, the Coast Guard is no stranger to Arctic waters, and 
we have operated in the Arctic for most of our history. The 
majority of our Arctic operations are concentrated in the 
southern Arctic, or Bering Sea, where we protect the fish 
stocks and fisherman. Protecting one of our Nation's most 
richest biomasses, those who make their living harvesting it, 
and other shippers who transit through its often treacherous 
waters creates a persistent demand for Coast Guard services. We 
understand and we have the experience to meet these challenging 
maritime missions. Resourcing them will be another story.
    But we have also been actively gathering information about 
operating above the Arctic Circle and the Chukchi and Beaufort 
Seas as we prepare for a gradual northerly expansion in demand 
for our services in ice-diminished Arctic waters. For the past 
3 years we have conducted seasonal cutter, small-boat, and 
helicopter operations, along with biweekly Arctic Ocean 
flights.
    This year we are organizing a major operation in the 17th 
Coast Guard District in anticipation of drilling in the Chukchi 
Sea. This operation will feature a mixture of flight deck-
equipped cutters, sea-going buoy tenders, fixed-wing aircraft 
and helicopters, and communications support infrastructure. I 
have made it a priority to personally travel to Alaska the past 
two summers with DHS leaders and interagency leaders like the 
Department of Interior Secretary Salazar, Deputy Secretary 
David Hayes. And we have met with local and State partners, 
including Governor Parnell and Lieutenant Governor Treadwell, 
who is here today. Also, with the Alaska native tribes and 
industry, to see the challenges that we are confronting 
firsthand.
    In the Beaufort and Chukchi Seas we are now seeing a 
gradual transition from very limited episodic demand into a 
more sustained seasonal demand. At some point these demands may 
involve--evolve into a full-fledged seasonal operation. 
Therefore, our present operational concept is largely an 
extension of our current posture, mobilization of sea-based 
command and control forward operating bases from which we will 
conduct operations with gradually increasing support from our 
shore-based aircraft.
    Should a national incident arise in the Arctic, we will 
mobilize the entire inventory of Coast Guard assets. We will 
accomplish the mission, just as we always have during our 200-
century--our two centuries of service to the Nation. But to 
fulfill this promise to America, our heroic Coast Guard men and 
women need--and, frankly, they deserve--the modern assets to 
get the job done.
    Thank you for this opportunity to testify, and I look 
forward to your questions, sir.
    Mr. Young. [presiding.] Thank you, Admiral. And you notice, 
in respect for your rank, I let you go over for a couple 
minutes.
    Admiral Papp. Thank you, sir.
    Mr. Young. You are quite welcome. And now, Mr. Treadwell. 
And I am going to watch you real close, but I will even let you 
go over 2 minutes, if you want to. Go ahead.
    [Laughter.]
    Mr. Young. That was Lieutenant Governor, I am sorry.
    Mr. Treadwell. No problem.
    Mr. Treadwell. Mr. Chairman, members of the committee, for 
the record I am Mead Treadwell, Lieutenant Governor of Alaska. 
And thank you for having me here. Or, I should say, back here 
today. Admiral Papp and I sat next to each other in 2006 on 
this issue, and it is about time we get some action.
    The purchase of Alaska in 1867 made America an Arctic 
nation. Yet after 150 years, the myth of Seward's Folly still 
lingers. It is time to quite arguing whether investment in the 
north is worth it, and recognize the valuable people, 
resources, and location we gained as a Nation.
    We ask this committee--and, by extension, Congress and the 
executive branch--to look at the bigger picture in the global 
Arctic, and recognize three imminent needs. First, Alaskans 
have said it before, Governor Sean Parnell testified on this in 
2009, we will say it again. It is time for Congress and the 
administration to act, and to act now, to add new Polar Class 
Icebreakers in the United States Coast Guard's fleet. The need 
is more urgent than ever. The changing Arctic will bring--it is 
bringing historic changes in global shipping patterns.
    Secondly, Congress and the administration need to recognize 
that their own mandates and policies, including a significant 
mandate passed just last year, have directed that we maintain 
icebreaking operations, and neither the intent nor the letter 
of these mandates are being met.
    And third, in addition to icebreakers, we need legal 
measures to protect our shores from the dangers of unregulated 
itinerant vessels that are now carrying hazardous cargoes near 
our coast through the Bering Strait, which Admiral Papp's 
predecessor has described as the Bering Gate. And it is the 
only way in and out of the Arctic Ocean from the Pacific.
    First, let me emphasize to you that changes in the Arctic 
are creating tremendous game-changing opportunities. We know 
ice covers at historic minimums, multiyear ice is decreasing. 
We know that icebreaking technology has made--has advanced, 
bringing significant new efficiencies. Northern sea routes 
sought for hundreds of years are now a reality.
    What that means is that international shipping of oil and 
gas resources and other potentially hazardous cargoes through 
the Bering Strait is growing rapidly, as foreign shippers set 
their sites on Asian markets. Other Arctic and non-Arctic 
nations are seeing this potential, but America is missing the 
boat.
    I was in Arctic forum in September in Arkhangelsk, Russia, 
in a room about this size with Vladimir Putin, where he 
announced Russia intends to make the northern sea route as 
important to global commerce as the Suez Canal. Russia is 
putting its money where its mouth is; they are building nine 
new icebreakers, discounting tariffs on their icebreaker 
escorts, so shippers can use the northern sea route for a 
savings of about 40 percent. Sweden, Finland, and Canada, even 
the European Union, China, Korea, and Japan are beefing up 
their icebreaker fleets and paying attention to the historic 
opportunities. The United States must plan for an Arctic 
shipping future that could be like a new Suez Canal.
    My second point today is that we are failing to meet our 
own national mandates, goals, and policies. President Franklin 
Roosevelt's 1936 Executive Order 7521 to keep channels and 
harbors open to navigation by means of icebreaking operation 
has not been implemented in the West. This article from the 
Anchorage Daily News today shows that there is a fuel problem 
in Nome. They can't get the gasoline they need to Nome for the 
winter. The article reports that the shippers canvassed the 
Nation looking for icebreakers and ice class tugs and barges to 
get fuel there, but so far it has had no success. If this were 
the Great Lakes or New England, it is standard practice, has 
been since the Roosevelt Executive order, to have icebreakers 
there to support commerce.
    The Arctic Research and Policy Act directs the Office of 
Management and Budget to build and deploy icebreakers, and 
allocate funds necessary to support icebreaking operations.
    Last year's authorization act mandates the Coast Guard to 
promote safe maritime navigation by means of icebreaking where 
necessary, feasible, and effective, and that makes President 
Roosevelt's order the law of the land. The act also directed 
the committee on marine transportation system to develop an 
integrated shipping regime. I met with CMTS leaders on my last 
trip to Washington, and urged them to be far more ambitious 
about thinking about Alaska's--America's role in this shipping 
route.
    Last May, Secretary of State Clinton joined seven Arctic 
nations on a search and rescue agreement. We had the first 
search and rescue exercise in October in Whitehorse, Mr. 
Chairman. That binding agreement to provide search and rescue 
operations in our sector of the Arctic is compromised by our 
lack of icebreakers in this region.
    Perhaps the recent decision of the U.S. House to retire the 
Nation's only heavy icebreaking ships without replacements will 
force a legitimate conversation about the need for icebreakers. 
But we should, however, be cautious. It is a risky game of 
chicken. And if this game, if it fails it fails Americans, and 
Alaskans, most of all.
    Under our current economic situation some question whether 
we can afford icebreakers. Mr. Chairman, I would argue we can't 
afford to go without them. It has been argued we should charge 
for icebreaker escort services, like the Russians. Or ship 
owners might pay for services like they do in the Panama and 
the Suez Canal. U.S. vessels pay for oil spill escort vessels' 
preparedness and insurance. A bill pending in this Congress 
would have the U.S. lease, rather than own, icebreakers it 
needs in the Arctic. And some have suggested perhaps instead of 
scrapping our current infrastructure entirely, you might 
consider selling the icebreakers to the private sector for 
refurbishment, creating jobs and lowering Government costs.
    But how will we work out our finances America and its 
trading partners could reap, and we could miss the boat as 
others reap huge economic opportunities from these shipping 
routes?
    And this brings me into my last point. Congress needs to 
understand there are two classes of ships operating the Bering 
Strait region right now, and in the Aleutians. There are those 
that are under contingency planning requirements for oil spills 
and those that are not. U.S. vessels are highly regulated. In 
fact, over 120 laws control the use of the coastal zone and 
offshore areas. But ships originating outside of the U.S. and 
passing though the Bering Strait are not required to have a 
contingency plan. My formal testimony has a list of about six 
potential options that we could use to bring these ships under 
regulation. But having an icebreaker is necessary to help 
enforce it.
    The State of Alaska, I should report, is doing its part. 
The State actively supports the marine safety, life safety, and 
pending Arctic and marine aviation infrastructure work at the 
Arctic Council. We support and we have offered funds to help 
the U.S. Coast Guard's efforts to bring forward basing to 
Alaska's north coast. We participate extensively in research 
fostered by the U.S. Arctic Research Commission and the 
University of Alaska. Our legislature has the Northern Waters 
Task Force, making recommendations on mitigation strategies and 
infrastructure and regulatory needs. We have got a port study 
going on with the Army Corps of Engineers. We support the 
marine exchange of Alaska that has put a network of automatic 
identification system receivers to let us know what kind of 
ships are passing through.
    Mr. Chairman, members of the committee, Alaska has and will 
continue to work hard on an Arctic policy, because we are 
America's Arctic. It is our home, our heritage, and our future. 
And we work hard with high hopes for outcomes. But first we 
need icebreakers. Without action on this, America is putting 
its national security on the line, and we are going to miss the 
historic game-changing opportunities of the Arctic, while 
watching other nations advance.
    Second, Congress and this administration must fill its 
established mandates, goals, and policies for the Arctic.
    And third, we need to take legal action to protect our 
coast and prevent spills in the Arctic and the Aleutians. We 
have been an Arctic nation for 150 years. It is time to set 
aside that myth of Stewards Folly, and realize, yes, the 
investment is worth it, and the payoffs for America are huge. 
Thank you.
    Mr. Young. Thank you, Governor--I mean Lieutenant Governor; 
I better not get the Governor excited.
    [Laughter.]
    Mr. Young. I want to thank both the witnesses. And with 
this I will turn to the ranking member, Mr. Larsen, to ask some 
questions. I run this a little different than other chairmen; I 
always ask the alternating sides to ask questions first, and I 
will close out. So, Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman. I will start with 
Admiral Papp.
    One of the debates we are having here is the lease versus 
own plans. And I am curious, first off, about the Coast Guard's 
assessment of the worldwide availability of leased heavy 
icebreakers. Second, what would be the--what is the difference, 
in your estimation, of heavy icebreakers versus non-heavy 
icebreakers, and their capability to operate in the Arctic? Can 
you start there?
    Admiral Papp. Yes, sir. Interestingly enough, last week I 
was in London at the International Maritime Organization. Given 
my concern and interest in the Arctic, I hosted a lunch for the 
other seven countries that comprise the Arctic, and of course, 
most importantly, the five of us that are interested in 
operating on the waters of the Arctic.
    I took great interest in sitting next to the minister of 
the interior for Sweden. She was very apologetic to me that 
they had to call Oden home, because they need every icebreaker 
they can have, and her own government put pressure on her to 
break the commitment to send Oden to break out Antarctica this 
year.
    Each one of the countries said that they are short on 
icebreakers. They are trying to build them as quickly as 
possible, but there is no surplus right now. So anything, in 
terms specifically for heavy icebreakers, in my estimation, has 
to be new construction.
    As far as leasing, I don't believe there are any others 
that are available for lease, at least not readily. I think the 
National Science Foundation, in a solution to replacing the 
Oden, is getting an icebreaker from Russia, but I haven't 
confirmed that.
    Mr. Larsen. OK. But the--so the other part was the 
difference between a heavy icebreaker and one--and a medium 
icebreaker, or something that is not a heavy icebreaker.
    Admiral Papp. Well, the----
    Mr. Larsen. In terms of operating and capability and so on.
    Admiral Papp. Right. Are you looking for the specifics, in 
terms of how much ice----
    Mr. Larsen. I am looking for you to answer my question 
about where there are differences--can they operate in the 
Arctic or not?
    Admiral Papp. Oh, yes, sir. We have Polar Class one, two, 
and three, Polar Class one being the most heavy of the 
icebreakers. We consider Healy--what we call our medium 
icebreaker--to be somewhere in Polar Class two or Polar Class 
three. Shell is building two that are capable of Polar Class 
three, as well.
    And I think generally they can operate. They could probably 
operate down in Antarctica, depending upon the conditions of 
any particular season. But there are seasons where the ice will 
be very heavy, and you need a heavy icebreaker. The reason we 
are pushing for a heavy icebreaker is because we also have a 
responsibility to break out--in the Antarctic to break into 
McMurdo for the resupply. So we have to have that versatility 
to both be able to operate in the Arctic and Antarctic.
    Mr. Larsen. So, the other question about ownership versus 
leasing--and I don't want to steal anyone's thunder, because we 
are having this debate, but the availability of leasing 
icebreakers that are here in the United States, so private 
leasing--leasing from private companies in the United States, 
as opposed to leasing from one of these other countries.
    Admiral Papp. As far as we can determine, there are no 
icebreakers available--no heavy icebreakers available for 
leasing right now. They would have to be constructed. If we 
were to lease an icebreaker, I am sure that a company building 
an icebreaker outside of the Government does not have to 
contend with the same Federal acquisition rules that we have to 
if we were to construct an icebreaker. It could probably be 
done quicker.
    Personally, I am ambivalent, in terms of how we get an 
icebreaker for the Coast Guard. We have done the legal 
research. If we lease an icebreaker, we can put a Coast Guard 
crew on it and still have it as a U.S. vessel supporting U.S. 
sovereignty. But they aren't available right now.
    And the other challenge that we face is Federal acquisition 
rules and A-11 requirements that score the money for leasing. 
We would have to put up a significant amount of upfront money, 
even with a lease, that we don't have room for within our 
budget, currently.
    Mr. Larsen. Yes. Regarding--am I on a clock, here? I don't 
want to take a lot of time, but----
    Mr. Young. I didn't put you on a clock, but I am about 
ready to do that. So you go ahead, about two more questions, 
and we will come back to you, OK?
    Mr. Larsen. I will make them multipart questions, then.
    Mr. Young. OK.
    [Laughter.]
    Mr. Larsen. With regards to the infrastructure side of the 
Coast Guard's plan for high-latitude operations, you mentioned 
in your testimony as an example, if you had to respond to a 
disaster in the Arctic you would use onshore basing for fixed 
wing and operations. But where would you--where would that be? 
And what would be the response time?
    Admiral Papp. Well, I can tell you right now that we are 
already developing a plan--I have been briefed by the district 
commander preliminary, we are going to be briefing the deputy 
secretaries of Interior and Homeland Security next week. We 
will base in Barrow. We have actually been able to find a 
hangar where, from time to time, they will allow us to move our 
helicopters in to do maintenance. But we don't have a permanent 
hangar to put them in. But we have got a good, modern air strip 
there with proper instrumentation. And we are accustomed to 
flying in and out of Barrow, it is just that there is not much 
infrastructure there, in terms of doing long-term support and 
maintenance.
    Additionally, as I--I have had that visit up there since I 
last reported to you--we went in with a travel party of 12 and 
couldn't find enough rooms to take care of us. We ended up 
sleeping overnight in dorm rooms at the old DEW Line facility 
that is there in Barrow.
    So, to sustain a large presence during this season, we 
would be up there. We are going to have to find some sort of 
lodging for those on shore. But in reality, most of our plan is 
based upon having ships up there. The ships have flight decks. 
They have long endurance. They have got enough fuel to stay up 
there. And most of our work will be done from afloat. That is 
also where we have superior command and control capabilities, 
communications, navigation, et cetera, on the cutters, both 
icebreakers and High Endurance Cutters.
    Mr. Larsen. And my final question would be with regards to 
ships. Where would those be home-ported? Where would those 
actually be?
    Admiral Papp. Well, one of the ships is coming out of 
Kodiak. That is its home port. The Alex Haley and--will deploy 
Alex Haley up there for most of the summer. The other ships 
that will go up there will probably come out of West Coast 
ports. Bertholf, one of the new National Security Cutters, is 
the other primary ship we will be using. That is in Alameda, 
but will deploy, refuel either in Kodiak or Dutch Harbor, and 
then deploy up there for probably a couple of months. We may 
put one of our High Endurance--older High Endurance Cutters up 
there from time to time, and we also will probably take a 
couple of our 225-foot sea-going buoy tenders, which have 
pretty good long-range sustainability, and have light 
icebreaking capability.
    Mr. Larsen. OK. Thank you, Mr. Chairman.
    Mr. Young. I thank the ranking member. Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman. Admiral, good to have 
you and the Lieutenant Governor with us this morning.
    Over the last decade, the issue of icebreaking capability 
in the polar region has been studied, it seems, endlessly. 
There has been a naval operations concept, the National 
Research Council report, the U.S. Arctic Research Commission 
report, a DHS inspector general report, a Coast Guard report to 
the Congress, a high-altitude mission need analysis. And the 
list goes on. Each one has come to the same conclusion, and 
that is what is the--that the U.S. Coast Guard needs new Polar 
Icebreakers.
    Admiral, if you know, does the administration and the 
Department support the need for new icebreakers?
    Admiral Papp. I believe right now that I am getting 
questions from the administration and from the Department which 
indicate that they recognize that the need is developing for us 
to have icebreaker capability up there. It hasn't gone much 
beyond that.
    I would agree with you. We have studied it a lot. They all 
seem to come to the same conclusion. But I think because it is 
such a large investment, we just haven't proceeded beyond that.
    Mr. Coble. Thank you. Beyond the 2009 Presidential 
directive on the Arctic, it seems to me there has been little 
guidance from the administration on what the United States 
should be doing in the Arctic. There have been several reports 
and plans that mention a need for a presence there, but they 
have all fallen short, it seems to me, of a concrete mission 
statement for the Arctic.
    And I guess my question is twofold. What will the 
administration--when will the administration provide a plan for 
the proper role of our Nation in the Arctic, and what should 
the national presence be in the Arctic, and what should the 
Coast Guard's presence be in the Arctic?
    Admiral Papp. Sir, I have no timeline on an administration 
plan for the Arctic. In the absence of that, I feel a strong 
responsibility for Coast Guard equities that are involved up 
there. And, as I said, in the short term, with the drillings 
starting in the Chukchi Sea, we have had to come up with a plan 
for Coast Guard operations up there for next summer. But it is 
also coordinated with the Department of Interior, as well.
    So, we are very hopeful that, between the Department of 
Homeland Security and the Department of Interior, that we will 
start with our short-term plans, in terms of how we are acting 
up there, which will gain momentum into developing those long-
term plans.
    And this has the support of Secretary Napolitano. I just 
came from a meeting with her on Tuesday, informed her of the 
progress we are making, and she is very interested in getting 
the briefing after we do it to both the deputy secretaries for 
Interior and Homeland Security.
    Mr. Coble. Thank you, Admiral. Gentlemen, let me ask you 
this. Does it concern you that other Arctic nations, and even 
some non-Arctic nations, such as China, are, I am told, years 
ahead of the United States in terms of Arctic planning?
    How do we best protect our sovereignty and national 
interest in the Arctic?
    Admiral Papp. Well, I would say, sir, a persistent presence 
in the Arctic. First of all, another more strategic issue is 
accession to the Law of the Sea Treaty, which gives us a venue 
and standing with all the other Arctic countries that have 
already signed on to that. We can make plans, we can map, we 
can talk about what we think is our extended outer continental 
shelf claim, which expands our exclusive economic zone. But 
until we have the status or the standing of being part of that 
convention, we cannot make legitimate claims.
    So, in the absence of that, we have been sending Healy up 
there to do mapping of the area. Healy provides a sovereign 
presence in those waters. And, of course, as we start drilling 
this next year, we will have an increased Coast Guard presence 
up there asserting our sovereignty.
    Mr. Coble. Thank you, Admiral. Lieutenant Governor, you 
want to weigh in on that, as well?
    Mr. Treadwell. I think what I would like to say is we do 
support Accession Law of the Sea. There is a provision in the 
law of the sea, article 234, that allows us to help protect 
against these itinerant vessels.
    And besides the oil drilling that we fully support and we 
hope will happen this summer, we just have to pay attention to 
the fact that people are already shipping crude oil, iron ore, 
gas condensate, aviation fuel, and other cargos right through 
the Bering Strait. And if there is a spill, we don't--that is 
not the American oil companies' responsibility. These are 
cargos going from Norway to Japan, from Russia to Thailand, 
from Russia to China. And this is happening right through this 
narrow spot in the ocean.
    And it helps us to have that capability of icebreakers to 
protect our own interests. So there is the sovereign interest. 
I am not too worried that somebody is going to take our land. 
It is important that we do the mapping, but the sovereign 
interest of being able to protect our shore and our coast line 
is missed when we don't have that maritime capability.
    Mr. Coble. I thank you, sir. Mr. Chairman, I have got a 
judiciary hearing I have got to attend. I will try to come 
back.
    Mr. Young. I thank the gentleman for his questions. Mr. 
Landry?
    Mr. Landry. Thank you, Mr. Chairman. You know, I find it 
just fascinating, the comment you made speaking to Mr. Larsen, 
in that--the comments that were made around that table from 
other countries saying that there is a shortage of icebreakers.
    And so, as a business owner and someone, you know, who 
tries to live the American Dream, I recognize that we have an 
opportunity, of course, if we help and promote our private 
sector maritime industry, where we could be a leader in having 
a private icebreaking fleet. So, you know, again it is an 
interesting twist. Because it would be great to see those 
countries and say, ``You know, Admiral, boy, I will tell you, 
Americans just are making first class icebreakers and we would 
like to lease from you all, as well.''
    Do you agree that 10 icebreakers, based upon the 2010 
``High Latitude Study,'' is what you all need, 6 heavy and 4 
medium icebreakers? Do you agree with that?
    Admiral Papp. Well, sir, we could certainly put those to 
use. You would need that many to do a persistent presence--in 
other words, keeping an icebreaker up in the Arctic at all 
times of the year, and also having the ability to be down at 
the Antarctic as well. The ``High Latitude Study'' looked at 
that, and you are really looking at both those areas.
    Mr. Landry. So--and of course I think we can all agree that 
we probably, in the current fiscal condition we are in, would 
never be able to appropriate the money to build 10. So would 
you prefer to have 5 icebreakers you own, or 10 you lease?
    Admiral Papp. I would have to think about that. That sounds 
like an intriguing deal, but I am just not sure.
    Mr. Landry. OK. I mean I think I know what the answer is, 
but I appreciate it. I mean because I certainly would like you 
to have what the study would recommend that we would have, and 
that would be the maximum amount of vessels that we could put 
up there.
    I know that a recent Coast Guard study projected that the 
cost--a cost of $859 million to design and construct a new 
heavy icebreaker. Is that the total cost of the icebreaker?
    Admiral Papp. Yes, sir.
    Mr. Landry. So that would include the cost for regularly 
scheduled overhauls?
    Admiral Papp. No, that is the price for constructing the 
icebreaker itself. And then you would have to put annual 
budgetary authority and our operating expenses to then maintain 
it and, of course, money for periodic overhaul.
    Mr. Landry. And then, of course, eventual decommissioning 
costs as well, I would assume.
    Well, let me ask you this. If it is going to cost us $859 
million to build 1 new heavy icebreaker, would the Coast Guard 
be putting all of the cost of that build in the first year of 
the appropriation, or would it spread it out in multiple years?
    Admiral Papp. Sir, that is speculation. Because I would 
make the case that this is something that should not be a 
burden solely upon the Coast Guard budget. Icebreakers are used 
across--to support across the Government operations----
    Mr. Landry. And I agree with you as well, Admiral. I am 
just trying to understand, from a budgetary perspective, how we 
would attack this in recognizing how CBO would score it.
    In other words, when you would make the request, regardless 
of whether you would go to other agencies to put in their pot 
of money, would we take that $859 million and just add that 
into the first year, or would we try to spread it out, based 
upon the construction time of the vessel?
    Admiral Papp. No, you would start out with certain smaller 
amounts of money to take you through the acquisition process, 
in terms of design specifications and then down-select of 
designs from multiple companies. And then you would not put the 
bulk of that money in until you are ready--you have down-
selected and ready to start construction.
    We are going----
    Mr. Landry. Mr. Chairman, I find this fascinating, because 
when we try to score the lease, the CBO puts it all up in the 
first year. And so we are not comparing--we are not able to 
compare apples to apples. It is like an apple to an orange. I 
mean the admiral just said--and I think he is right--in that if 
we would budget a new heavy icebreaker, they would spread the 
cost of that appropriation over a time period. But yet, when we 
try to score the leasing, CBO puts the entire lease for the 20 
years in--and penalizes us in that first year----
    Admiral Papp. I need to clarify that, sir. Because, I mean, 
what we are required to do is there is certain money for 
design, but once you start construction--in fact, we are going 
through this now with the National Security Cutter--one of the 
challenges we find in terms of trying to fit the National 
Security Cutter in our budget is that OMB, under the 
requirements of A-11, requires us to put long lead materials, 
construction costs, and then post-construction costs all in the 
same budget year, whereas in the past we might be able to put 
long lead materials in a given year and then follow-on 
construction costs.
    And following strict A-11 guidance has required us to put 
all that money in 1 year. Hence, the reason they do it with 
leases, in terms of scoring upfront, as well.
    Mr. Landry. Right. But I still don't think it is an apples-
to-apples example. I mean at the end of the day, the Federal 
Government is not going to outlay the entire cost of the lease 
in 1 year.
    And the problem we have up here--and, look, Admiral, it is 
our problem, and it is not your fault--this Federal Government 
doesn't understand cash flow. You know, and that is my point, 
is that we are being penalized, and we are not able to truly 
assess a lease-versus-build option. Mr. Chairman.
    Mr. Young. I thank the gentleman. And, you know, Admiral, I 
don't know whether you should do it or whether we should do it, 
but somebody should be able to lay out a plan. Which is more 
economical, owning, maintaining, manning a ship by the Coast 
Guard after going through all the other Federal requirements, 
or leasing from a company that would build the appropriate 
vessel that you put the covenants in?
    And I think there has to be a plan. Maybe we should do it. 
You know, I hear these different stories. I don't know whether 
leasing is cheaper. But I do know they don't have to go through 
the programs that you have to go through, under the Federal 
laws. It may be cheaper. Is maintenance cheaper? Maybe. 
Probably. So that is the answer we get. Because what we want 
are the vessels in the Arctic. And I hope that you would be 
working with us so we can come down with a program.
    And, you know, I appreciate your support for the completion 
of the eight National Security Cutters. You know, the criteria 
included in the recently House-passed Coast Guard bill set by 
the Coast Guard when funds now more than $3 billion are 
requested to acquire the National Security Cutters. It is truly 
unfortunate the Coast Guard now feels meeting its own 
requirements are disruptive. Now that is sort of strange to me. 
I am not being hostile. I--we use those in that bill. Now they 
are disruptive? Why?
    Admiral Papp. Well, for instance, sir, one of the things is 
demonstrating 225 days underway. In order to do 225 days 
underway, we need to do a multiple crewing concept, which--we 
don't have the money right now to buy the additional crew, nor 
do we have the--all the ships online yet. I mean we just have 
three. The third has been delivered. And we are operating them 
and testing them. When you have the full build-out, and you 
have the additional crews to be able to do the crew rotation 
and swap, you can get to those extra days.
    I think one of the other provisions was demonstrating UAV 
capability. We are continuing to do that, but the Coast Guard 
can't afford to do that all on our own, because what we need is 
the support of Navy, which is developing unmanned systems. And 
we are leveraging off them spending the money and doing the 
testing. And, in fact, this next summer we will be testing one 
of their smaller systems.
    Mr. Young. Well, Admiral, all I can say is those 
recommendations came from your department. They are not--we 
didn't make those up. And either they were given to us 
accidentally or inappropriately, but you know, I would like to 
see you follow through and if you tell us why--I guess you just 
did, to some degree--why you can't do it.
    You mentioned another thing that interested me, where you 
would be staging--the areas. And you mentioned Kodiak. I 
believe that is where the Healy is, is that correct?
    Admiral Papp. That is where the Alex Haley is.
    Mr. Young. Alex Haley. I sponsored language in the last 
bill about your study and the look at locations that are ice 
free or nearly ice free that would serve as year-round bases 
for the vessels and aircraft to support operation in the Arctic 
region. While I recognize it is important to have base 
facilities in the far north, that is awful shallow water, as 
you know. That is going to be our biggest challenge.
    But are you looking into any other bases, other than 
Kodiak? Are you looking at the--any of the islands, or Nome, or 
Platinum, or anything like that, or are you just settled now on 
Barrow?
    Admiral Papp. Well, Barrow is the place that we are looking 
at that has probably the most--the best infrastructure that is 
in existence for the shore side of what we are doing.
    Mr. Young. What I am leading up to, Admiral, is when you 
say there is going to be vessels stationed in the lower 48, 
that bothers me. And I am not being selfish about this, but 
this is an Arctic region, not Hawaii or not San Diego, or not 
San Francisco, or not Seattle.
    Mr. Larsen. Nothing in Seattle.
    Mr. Young. Nothing in Seattle.
    [Laughter.]
    Mr. Young. But, you know, just--I mean have you--are you 
looking at other areas for basing?
    Admiral Papp. No, sir. As a matter of fact, we are going to 
have fewer ships to base, and we will need fewer ports.
    But you know, the history of us going into Alaska, even in 
our days as the Revenue Cutter Service, when Alaska was a 
territory, we have always had bases primarily in Seattle, where 
we deployed the ships from.
    Mr. Young. Well, you know why that was. Be very careful. 
You know why that was. Because Alaska was a--you know, a 
foreign territory, and all the money was in Seattle. And that 
is where the pressure went.
    Now, I am just suggesting respectfully, because we have the 
largest Coast Guard operation in the United States in Alaska. 
But if you are going to station vessels like the Gates and 
those things, they ought to be stationed in Alaska, not down in 
the lower 48. It saves fuel. Housing can be a problem, we can 
solve that problem. I want to talk to Mr. Treadwell about that 
a little later. But keep that in mind.
    And if I can go back to the concept of the cutters again, 
we are talking about the cutters, all the time about the 
cutters. Are we planning enough other support, infrastructure? 
Is there a plan? Have you got a plan about what we need up 
there, other than the cutters?
    Admiral Papp. Well, yes, sir. We don't have a plan right 
now, but what we are doing is we have been evaluating the last 
4 years, and going up there and testing our equipment that we 
currently have and looking at the locations. We have exercised 
out of Barrow, out of Kotzebue, and out of Nome, to look at 
those three locations.
    Mr. Young. Have you looked at St. George and St. Paul?
    Admiral Papp. Well, we operate out of there from time to 
time. As you probably know, when we get into the crabbing 
season and the fishing season, we forward deploy helicopters 
and C-130s first of all to Cold Bay and then up to St. Paul. 
And what we are looking at is just actually an extension of 
what we have done in the past, except this year we will take 
those aircraft and move them further north, up to Barrow, to 
operate during the----
    Mr. Young. What about docking ships in either one of those 
areas? They are the only ice-free areas in the Arctic that I 
know of.
    Admiral Papp. Well, therein lies the challenge. And I am 
trying to answer your question on basing up there. Kodiak has 
limited capacity.
    I started my career up there. I was stationed on a ship out 
at Adak. I lived at Adak for 2 years. And of course Adak is 
closed down now. You can go in there and occasionally get fuel.
    If we go back to the Revenue Cutter Service days, we based 
out of Dutch Harbor. And I have been into Dutch Harbor many 
times. And there is, in fact, where Shell is going to muster 
all its forces before they start to proceed up to the Chukchi. 
We will be there. We will refuel in Dutch Harbor, as we have 
probably for over 100 years, and then proceed up north towards 
the Arctic.
    Nome is the only one, in my estimation, that has potential 
right now. I know since my days of sailing around the Bering 
Sea they have finally built a pier there. But the pier--I think 
the depth of the pier was only about 22 feet of water, which 
doesn't accommodate a lot.
    Mr. Young. That is a problem. And looking at the--I believe 
it is Platinum, or down in that area, there is a deep harbor 
there, but it is quite a ways out. See, I am trying to get you 
closer to the Arctic.
    Admiral Papp. Right.
    Mr. Young. And, you know, that saves fuel and it saves 
response time which is, I think, crucial.
    Admiral Papp. Right.
    Mr. Young. And we will get back on this icebreaker thing, 
because I am not--I am trying to figure out a way that shows 
the tax payer which is the best way to put those icebreakers in 
the Arctic. You know, Russia has got, I think, five atomic-
driven icebreakers. I know they have got one big one. And that 
is crucially important, to make sure that works.
    But Mr. Treadwell, you mentioned what the State is doing, 
all the good things. Why don't you propose to the Governor that 
we buy those two decommissioned icebreakers and refurbish them, 
and then we will lease them back to the Coast Guard?
    Mr. Treadwell. As I said in my testimony, Mr. Chairman, 
that suggestion has been made. It was yesterday with Senator 
Lesil McGuire, who published an op ed piece on this, and is 
going to be sending the committee a letter suggesting the State 
get involved in financing the icebreakers, as well as the port 
efforts.
    At this point we have told--and when the commandant and I 
last met and the Governor and he last met, we talked about ways 
the State can support forward basing. And we are putting money 
and lots of effort into this western Alaska port study, to 
understand where we have got deepwater capability, where we 
might focus on having ports.
    And obviously a capability would be a harbor refuge for 
this international shipping coming by, as well as supporting 
oil field development and fisheries. Some of the fisheries, 
fleets are moving north from Seattle. And any Coast Guard 
vessels are all part of that calculus.
    Mr. Young. Well, instead of getting those decommissioned 
vessels, maybe we just ought to have the State contract to 
build two big new icebreakers. And Admiral Papp, you would be 
more than willing to lease from the only Arctic nation or only 
Arctic State, from the State of Alaska, to do the work for you 
up there, and then you would have your icebreakers. And the 
solution would be solved, we don't have to get it out of the 
Congress, and we would have a little control over our own 
destiny. I want you to start thinking about that. It is outside 
the box.
    Mr. Larsen, you have some more questions?
    Mr. Larsen. My first one is for the chairman. What do you 
have against the Pacific Northwest?
    Mr. Young. I have nothing against it, but we were treated 
as a colony for so long, and we are finally getting control of 
our fisheries. Now we want to be in control of the Arctic. I 
think that is important.
    Mr. Larsen. Well, we can--one day--when we get this solved, 
we can actually have a debate about where things--let's be sure 
we get things built, then we can debate about where they go.
    Actually, the chairman's questions about infrastructure and 
where things go and what kind of support infrastructure is 
necessary is important. But what I am gathering, Admiral, is 
that we are still notional. We are not in a position where the 
Coast Guard is ready to put anything into an 2013 or an 2014 
request. Is that about right?
    Admiral Papp. That is right, because we already have a 
number of acquisition projects that we are working that we are 
having a lot of difficulty fitting within the limits of the 
budget right now. So adding new assets for emerging needs is a 
real challenge for us to accomplish.
    Mr. Larsen. Yes. Is there--I think from my perspective--and 
the chairman is sort of getting at this--but from my 
perspective, sort of getting an idea of what that looks like 
for--you know, what would a deployed--what would the footprint 
look like? What would the infrastructure look like? What would 
it be?
    Not so much on the map, but to kind of--what is it that you 
need that would be specific to this set of missions in the 
Arctic? Having that in a more organized form would be helpful 
to me so that I can envision it better----
    Admiral Papp. Right.
    Mr. Larsen [continuing]. And then maybe be able to act on 
it.
    Admiral Papp. Well, we still have a winter season up there 
where it is iced in, and there will be little to no commercial 
activity going on.
    Mr. Larsen. Right.
    Admiral Papp. So I am reluctant to put a permanent 
footprint--I don't have the room within my budget to 
appropriate a permanent footprint up there. So, in the absence 
of that, we do what we have done in numerous areas for many 
years, is the strength of the Coast Guard is having substantial 
ships with good command and control capabilities that can stay 
out there in a sustained basis, which we have been doing in the 
Alaska territory and in the State of Alaska, in the Bering Sea, 
in the Arctic for well over 100 years.
    Yes, they deploy from down south. But that is because 
sometimes we need them to do other jobs, as well. And we have 
been now--for 45 years we have had 12 High Endurance Cutters 
that we could call upon to get this job done.
    In the current limits of the budget and the projects that 
we have got going on, they are going to be replaced by eight 
ships. And operating in the Bering Sea isn't the only 
responsibility I have. I have worldwide responsibilities for 
those ships. And with fewer of them it becomes more difficult.
    But those are what we need right now, because we are not 
going to be able to do a year-round presence up there. So what 
we need is icebreakers, which will get up there at the 
beginning of the season, when the ice starts breaking up, and 
then it can come back in there as the ice starts forming again.
    But during the summer months, when there is going to be 
this increase of activity, either because of ships coming 
through the North Sea route or the drilling that is going on, 
we need substantial ships that have the command and control 
capabilities, that can do search and rescue, that can launch 
and recover helicopters, that have substantial fuel reserves so 
they can stay up there on a sustained basis. And that is what 
the National Security Cutter provides for us.
    Mr. Larsen. Yes. Lieutenant Governor Treadwell, I want to 
be careful about getting into Alaska's business.
    Mr. Treadwell. Sure, good idea.
    Mr. Larsen. As much as I don't appreciate folks getting 
into Washington State's business.
    However, this gets at the chairman's questions. Has 
Alaska--have you all done--walked through sort of what your 
vision of that footprint might look like? You talk about the 
western Alaska port study and so on and kind of where you all 
would fit into this picture as a State and----
    Mr. Treadwell. Yes. To respond, a couple things. First off, 
we did push and we are working with the Corps of Engineers on 
the western Alaska port study right now. But as you heard in my 
testimony, we put a lot of stock in what you told the Committee 
on Marine Transportation Services----
    Mr. Larsen. Sure.
    Mr. Treadwell [continuing]. To do last year. And I went and 
met with the leadership of that group and said, ``You have got 
to be much more ambitious.''
    And the disconnect here is that I will sit here, and we are 
wondering whether or not we can eke one icebreaker out of 
this----
    Mr. Larsen. Right.
    Mr. Treadwell [continuing]. When I have been in Russia, I 
have been in China, I sit down with the Arctic nations, as I 
did with Secretary Clinton in May, and you know, we brought all 
eight nations together to do this Arctic marine shipping 
report. This report said that there is an Arctic-wide 
infrastructure that needs to be done. There is a project 
pending at the Arctic Council on that now.
    And, you know, 10 percent of Alaska's workforce services 
the airplanes that carry most of the air cargo between Asia and 
Europe, between Asia and North America. A ship landing with 
cargo from China in your district may have stopped for fuel in 
our district.
    Mr. Larsen. Right.
    Mr. Treadwell. And the point of it is we may be ending up 
playing that global role on global shipping, as we take a look 
at that. And that is where we have been hoping that the Federal 
Government would look at the whole picture.
    And when the ``High Latitude Study''--which I only learned 
this morning was fully available--says that you need 10 
icebreakers, part of it is we need to think about our role in 
commerce. Last year you not only told CMTS to think about the 
big picture, but you also told him that he has a mandate to--
you took Franklin Roosevelt's Executive order and you put it in 
the law.
    And you hear from the Great Lakes folks all the time how 
important icebreaking is to commerce there. They shut down for 
the first 3 months of the year, usually. We have got a 
situation where from the middle of the summer through the first 
month of the year you are going to have Arctic commerce for the 
decades to come, at least. And we think it is important to have 
that presence.
    I should say one other thing about Washington versus 
Alaska. A lot of these ships that are transiting the Bering 
Strait have been for many years--start in Seattle.
    Mr. Larsen. Yes.
    Mr. Treadwell. Bring goods to--there have been times when 
you've seen tugs and barges or heavy draft ships leaving ports 
in Washington State, going through the Bering Strait to serve 
markets in Russia, Alaska, or Canada.
    Mr. Larsen. I was just going to note. It is a lot more of 
Washington and Alaska, as opposed to Washington versus Alaska.
    Mr. Treadwell. Yes, sir----
    Mr. Young. No, you don't understand. It is not versus. We 
just want to be treated, you know, like part of the United 
States, not as a colony any more, you know.
    Mr. Treadwell. Well, you know, just to add one more thing, 
and it can--the discussions I have had with the chairman. You 
know, if you were trying to expand the Panama Canal $1 billion, 
the price of one of these icebreakers, $859 million, would 
barely move a mile of dirt. And yet you have got something 
happening here at the beginning of this century which is as 
significant for global commerce as what happened at the 
beginning of the last century, with this waterway opening up. 
And we have to think----
    Mr. Young. I am going to ask one question and go to Mr. 
Landry.
    Admiral, you have been speaking about the Arctic. What is 
your feeling about the Shell activity, as far as in the 
Chukchi, and the Beaufort, as far as oil spill response, the 
availability of ships? What is going on up there, as far as you 
know, as a Coast Guard involver?
    Admiral Papp. Well, I was very interested in that. In fact, 
I went to Shell headquarters in Anchorage, while I was up 
there. And they gave me a very thorough briefing on their 
plans. And I have to tell you I was impressed. Last time I--we 
had the hearing on the Arctic, I was concerned because I had 
not seen Shell's plans. I know what we had available. But I am 
feeling much more comfortable, now that we have come up with 
our operation plan for next summer. And I have had a chance to 
view Shell's plans, as well.
    And once again, I have taken a superficial look at them, 
but the 17th District Commander, Admiral Ostebo, has reviewed 
it thorough with his staff. And we have been providing our 
input to the Department of Interior, who will approve their 
response plans.
    But they truly did their homework, I believe. And I think 
they are going to be well prepared for next summer.
    Mr. Young. Now, they have purchased or leased vessels, or--
what kind of vessel support are they going to have?
    Admiral Papp. Well, I know--in fact, I got an article 
yesterday about one of the--one of their icebreakers happens to 
be being built in Louisiana, surprisingly enough.
    But it--I saw the plans for them when I was up in 
Anchorage, and so I was interested in seeing this article 
yesterday that popped up. It is actually probably about as 
capable for breaking ice as Healy is. Doesn't have the 
scientific capabilities that Healy does, because when we build 
an icebreaker it has got to serve multiple communities and 
departments and responsibilities, but----
    Mr. Young. Is that the Nanuq?
    Admiral Papp. Actually, this one they said is unnamed. They 
are going to use a competition of Alaska school children to 
come up with a name for the vessel.
    Mr. Young. OK. But are those anchor ships or are they drill 
ships or are they oil spill ships? What are they?
    Admiral Papp. They are oil spill response fleet and it is 
icebreaker capable, and also set so--it can set the anchors for 
the platform.
    Mr. Young. It is really an anchor ship is what I--sets the 
anchors for the drill rigs and----
    Admiral Papp. Yes, sir.
    Mr. Young [continuing]. Everything else. I was just curious 
what you thought of it, because that is very important to the 
State of Alaska and this Nation.
    Admiral Papp. Well, my expectations were low when I went to 
Anchorage, and I was very impressed, coming away from 
Anchorage, when I spoke to Shell.
    Mr. Young. Mr. Treadwell, you got any comments on that same 
line?
    Mr. Treadwell. I have reviewed what Shell is doing in a 
cursory manner. I have also looked at the Coast Guard's plans 
for next summer. I think we are well prepared for a drilling 
season next summer.
    Mr. Young. Good.
    Mr. Treadwell. The issue of the ships, the company that is 
building these ships for Shell has visited with me and other 
State officials, and that is why you heard us say in our 
testimony that we think the leasing option should be 
considered. We don't have a way to judge the relative cost. But 
if it--on the face of it, it seems like it may be a way to get 
us the capability that the admiral needs.
    Mr. Young. Mr. Landry, excuse me.
    Mr. Landry. Thank you, Mr. Chairman. We would love to build 
you an icebreaker, but I would much rather you lease it--in 
Louisiana.
    Admiral, what is it that--I mean other than--do you just 
believe that going on a leasing option is a slippery slope for 
you all?
    Admiral Papp. I don't know how to characterize it. We have 
looked at various business case scenarios, each and every time. 
Looking at--once again, from our normal perspective, Coast 
Guard perspective, which has been owning ships forever--and 
generally we keep ships 30 to 40 years or beyond--there is a 
point where leasing becomes more expensive. It is out at about 
the 20- to 25-year timeline. I just don't have the experience 
with leasing to be able to give you a good opinion on it.
    And once again, I am ambivalent. We just need the 
icebreaking capability. I think it is for people who can do the 
analysis, the proper analysis. But they also have to take into 
account the capabilities required, and we need to get about the 
business of determining the exact capabilities that we need, 
which would take into account National Science Foundation 
requirements, Coast Guard requirements, the requirements to 
break into McMurdo, to come up with a capable-enough ship.
    Mr. Landry. Well, are those the requirements that they are 
mandating on the vessels that they are leasing from foreign 
sources right now?
    Admiral Papp. I have not--the Coast Guard has not been 
involved with their leasing process for other countries. 
Presumably, and as I understand it, what they are doing is they 
are looking at a ship that is capable enough----
    Mr. Landry. To break the ice.
    Admiral Papp [continuing]. Breaking in. But that was only 
because they were hiring it to break out for the resupply of 
McMurdo. Clearly, they--when they were doing science 
deployments in the Arctic, Healy has been perfect for them. In 
fact, I visited Healy while I was up in my Alaska visit, and 
National Science Foundation was aboard. They love that ship, in 
terms of its accommodations, its labs, et cetera, that were 
built pretty much to their specifications.
    Mr. Landry. Now the U.S. Navy leases vessels that are not 
involved directly in combat activities. Do you envision these 
icebreakers playing a direct combat role in the missions that 
you all have up there?
    Admiral Papp. Oh, it could, potentially, depending--I mean 
I don't foresee a scenario right now where we are going to be 
war-fighting in the Arctic. But who knows what--it is an 
uncertain future.
    Mr. Landry. But would you be designing those vessels in a 
design that would implement them into that combat role?
    Admiral Papp. Well, we would prefer to have a design that 
would accommodate a combat role, and that would be up to our 
manning standards, fire-fighting damage control standards that 
we expect on all our Coast Guard cutters.
    Mr. Landry. And so that is what I am trying to understand.
    I mean I still think--you know, it is just--look. If Shell 
is leasing their icebreakers and their vessels, and all of the 
majors lease the vessels that they utilize in their maritime 
offshore--in their offshore operations, and we certainly know 
that those majors are perfectly capable of owning and fleeting 
their own vessels--and they did at one time, actually, a long, 
long time ago they used to do that, and then they got away from 
it--I just think that when you look at--from a holistic 
standpoint, when you look at it and say, ``OK, the cost of 
construction, the cost of design, the timeframe involved, the 
maintenance''--because if you blow a rod on a leased vessel, it 
is not--you don't have to come back to us to appropriate that 
amount. You don't have to decommission it.
    In fact, the other thing is that if you lease it on a 20-
year lease, or a 20-, 25-year lease span, that means you get a 
newer, up to dated, more sophisticated icebreaker after that 
timeframe, where before, here we are--example in case with the 
Polar Star and the Polar Sea--in that we have got to patch up a 
much older ship. And so, instead of looking at it in a 30- or 
40-year lifespan, we could actually get you two icebreakers you 
could utilize over that lifespan, if we lease it.
    So, again, I only say that just to--for food for thought.
    Admiral Papp. Well, as I said, sir, I am truly ambivalent 
to this, except from what experience I do have.
    Now, two points. Yes, the Navy leases some ships, but we 
have got a Navy that has well over 300 ships. So if they lose a 
leased vessel or if something is pulled back or something 
happens, they have plenty of other ships they can fall back 
upon. Right now all I am falling back on is the Coast Guard 
cutter Healy. And it feels good to know that we own that and 
that is our ship for 30 or 40 years, and we can rely upon it.
    In terms of leasing, my personal experience is I lease one 
of my two cars. And I pay a lot of money leasing my car, but at 
the end of the lease period I have no car and I have spent a 
lot of money. So I don't know if that is directly applicable to 
ships as well. But right now I have got--half my garage is 
empty, because I just turned one in. And I----
    Mr. Landry. But you are getting ready to get a brand new 
one, I am sure. I don't think you are going to stay as a one-
car garage.
    Admiral Papp. I was really considering buying the next car, 
sir.
    Mr. Young. Now we are going to ships and cars. It is time 
to cut this off.
    [Laughter.]
    Mr. Young. Mr. Cravaack?
    Mr. Cravaack. Can I change it to trains now?
    [Laughter.]
    Mr. Cravaack. Well, first off, Admiral, thank you for all 
the great men and women in the United States Coast Guard. I 
apologize for being late, I was in another committee meeting. 
But all the great things that the Coast Guard do on a daily 
basis that none of us know about. So thank you to the United 
States Coast Guard.
    And as our strategic interests increase in the Arctic 
region, so must the responsibilities of the United States Coast 
Guard, as well. And I find it difficult to understand the 
wealthiest Nation in the world relying on one single vessel to 
do icebreaking up in the Arctic. Hopefully the Polar Star will 
be able to be reconditioned to a satisfactory point where we 
will be able to engage that as well.
    But I truly believe in your mission. And being a Navy guy, 
I understand about maintaining our own vessels. And my--one of 
my questions I had when we were--my colleague here--when you 
are leasing a vessel, say for example an icebreaker, can you 
take that into a war zone?
    Admiral Papp. Yes, sir. We have looked through the legal 
considerations on this. As long as we have a Coast Guard crew--
in fact, you can even make a mixed crew of civilians and Coast 
Guard people. But as long as it is commanded by a commissioned 
officer, you can assert sovereignty, you can take it into war 
zones. And, in fact, the Navy does that, as well.
    Mr. Cravaack. OK. That is a--I wasn't aware of that.
    But I am with you. I think it should be our vessel and 
manned by our crews, and with--flying a United States flag that 
is a Navy vessel, so--or a Coast Guard vessel. So I am with you 
on that point.
    And I would just like to support--undying support for the 
United States Coast Guard and their mission and what they do, 
and I think we should give them the resources they need to 
complete their mission.
    So, with that, I yield back.
    Mr. Young. I thank the gentleman. And I don't have a 
question, but I have been informed that Nanuq is a 4,500 gross 
ton vessel, and it stands offshore for 25 miles. The Aiviq--
called ``the Walrus''--is an anchor hammer, platform supply, 
search and rescue, ice management, and supplemental search and 
rescue unit, and weighs 8,500 gross tons, and it stays up there 
all season in the ice. So I just want to get that straight.
    I want to thank the admiral and thank you, Lieutenant 
Governor. We are going to try to solve this problem with the 
help of everybody cooperating, and making sure the Arctic is 
recognized. And we might come up with a--I call it an Arctic 
policy for solving these problems.
    I happen to agree with both the ranking member and Mr. 
Landry on the necessity of this. Because if we are just sitting 
still, all the rest of the countries are all actively involved, 
it is not good for us. And I think we ought to see the big 
picture. This is equal to sending a man to the moon, probably 
more important. That was more exciting, but this is more 
important to the future of the Nation.
    Thanks to both of you for being before the committee. You 
are dismissed.
    Next panel. Dr. Kelly Falkner, deputy director, office of 
polar programs, National Science Foundation; Mr. Stephen 
Caldwell, director of homeland security and justice, Government 
Accountability Office; Mr. Dave Whitcomb, chief operating 
officer of Vigor Industrial on behalf of the Shipbuilders 
Council of America; and Rear Admiral Jeffrey Garrett, United 
States Coast Guard (retired).
    And we will go down the line as we were introduced. Dr. 
Falkner, as soon as you take your seat, we will get busy. That 
is a good idea. Doctor?

  TESTIMONY OF DR. KELLY FALKNER, DEPUTY DIRECTOR, OFFICE OF 
    POLAR PROGRAMS, NATIONAL SCIENCE FOUNDATION; STEPHEN L. 
 CALDWELL, DIRECTOR, HOMELAND SECURITY AND JUSTICE, GOVERNMENT 
ACCOUNTABILITY OFFICE; DAVE WHITCOMB, CHIEF OPERATING OFFICER, 
  VIGOR INDUSTRIAL, ON BEHALF OF THE SHIPBUILDERS COUNCIL OF 
  AMERICA; AND REAR ADMIRAL JEFFREY M. GARRETT, UNITED STATES 
                     COAST GUARD (RETIRED)

    Dr. Falkner. Chairman, Ranking Member Larsen, and 
distinguished members of the subcommittee, I appreciate this 
opportunity to discuss how the National Science Foundation is 
meeting its icebreaking needs for research in the Arctic, as 
well as for research and operations in the U.S. Antarctic 
program that NSF coordinates on behalf of the U.S. Government.
    To promote scientific progress, NSF bears a critical 
responsibility for providing scientists with access to the 
oceans. And, in particular, to the polar oceans. These waters 
comprise only 10 percent of the global ocean area, but have a 
disproportionate influence on our climate. In recent decades, 
the polar oceans have undergone wide-ranging physical, 
chemical, and biological changes, which scientists are eager to 
study. Moreover, they are among the least-explored parts of our 
planet and are ripe for new discoveries.
    My oral testimony will focus on the needs of the U.S. 
research community for polar ocean access from NSF's 
perspective. I will then offer brief comments on the recently 
passed House version of the U.S. Coast Guard's authorization 
bill, H.R. 2838.
    Mr. Chairman, ice capable research platforms are essential 
to keeping the U.S. at the forefront of polar research. A 
number of nations have recently constructed--as you have heard 
this morning already--or are in the process of constructing new 
ice capable ships. Absent the U.S. Polar Class Icebreakers, 
only Russia currently has the heavy icebreaking capability to 
access the Arctic Ocean in winter. Only Russia and Sweden 
currently have proven capability to provide access for resupply 
of two of our Nation's three year-round Antarctic research 
stations.
    NSF is providing funding for the Sikuliaq, a light-duty 
icebreaker that will launch in 2014. This vessel will be used 
to study the vital ecosystems and ocean processes in the 
resource-rich waters of the Gulf of Alaska and Bering Sea. The 
only other U.S. Government-owned research icebreaker is the 
U.S. Coast Guard Cutter Healy, a 12-year-old vessel that can 
routinely operate in ice up to about 5 feet thick, and on which 
we sponsor Arctic marine research.
    For ice capable platforms in the southern ocean, NSF-
supported scientists rely on two leased vessels, Nathaniel B. 
Palmer, and the Lawrence M. Gould, both owned by Edison Chouest 
Offshore. These U.S. research ships cannot reach some 
scientifically important areas in the ice on their own. Joint 
expeditions with the Swedish heavy icebreaker Oden allowed this 
access in recent times. However, earlier this year Sweden 
concluded that it needed Oden at home. Our only domestic 
alternative would require the Coast Guard to redeploy Healy 
from the Arctic, where it is in heavy demand by scientists. My 
Coast Guard colleagues can speak more knowledgeably about how 
an Antarctic redeployment of Healy would affect their missions.
    So, as you can see, NSF relies on icebreakers to keep us 
active at the frontiers of polar marine research. NSF also 
relies on heavy icebreakers to maintain a viable Antarctic 
research program for the Nation. As articulated in Presidential 
Memorandum 664, and subsequently reaffirmed in a series of 
Presidential decision directives, U.S. policy calls for year-
round U.S. presence at three research stations in Antarctica. 
Maintaining this presence is essential to U.S. geopolitical, 
diplomatic, and scientific interests. Our presence also ensures 
the U.S. a leading role in governance through the Antarctic 
Treaty. NSF support is relied upon by other Federal science 
agencies to carry out Antarctic research.
    For many years, the U.S. Coast Guard annually opened a 
vital supply channel in the sea ice to McMurdo Station, which 
serves as NSF's logistics hub. Without resupply, both McMurdo 
and South Pole Station would have to close. When the Polar Star 
and Polar Sea approached the end of their design lives, NSF 
began contracting for support from other countries. Our current 
contract with Russia's Murmansk shipping company will continue 
for 3 years. But as you might imagine, Mr. Chairman, NSF would 
prefer to rely on U.S. assets for such a vital mission.
    Thus, NSF was disappointed to learn that the House-passed 
Coast Guard and Maritime Transportation Act of 2011 called for 
decommissioning of Polar Star within 3 years. We have been 
hoping that Polar Star would be available for 7 to 10 years for 
icebreaking services, once the ongoing renovations were 
completed.
    So, Mr. Chairman, committee members, U.S. researchers have 
led the world in polar science. I refer you to my written 
statement that highlights polar marine science objectives of 
global relevance.
    U.S. scientific preeminence can only continue with 
appropriate research and logistical support. NSF will continue 
to work with the Coast Guard and other Government agencies to 
develop a longer term solution to the Nation's icebreaker 
needs.
    Thank you for your time.
    Mr. Young. Thank you, Doctor. Stephen Caldwell.
    Mr. Caldwell. Mr. Chairman and Ranking Member Larsen, other 
members of the committee, thank you for having GAO up here to 
talk about Coast Guard Arctic operations.
    My statement today is based on a report we did in September 
2010 with recent updates. There will be three areas of focus. 
First will be Coast Guard efforts to determine the 
requirements, second about icebreakers, and then third about 
interagency coordination.
    Our 2010 report described a lot of activities the Coast 
Guard had to identify its requirements. These included 
deploying assets up to the Arctic. It also included seasonal 
forward operating locations, which we have already talked 
about. Then, after the publication of our report, the ``High 
Latitude Study'' was released. The ``High Latitude Study'' had 
much more details, in terms of Coast Guard's options and plans 
for the future. This study is contractor-written, the Coast 
Guard has not necessarily made decisions on which options are 
best.
    In my written statement, in appendix two and three, we 
summarize some of the key points of the ``High Latitude 
Study.'' The ``High Latitude Study'' identified some of the 
most important missions in the Arctic, and which ones were most 
impacted by some of the deficiencies and gaps in Coast Guard 
capabilities.
    The study then looked at a variety of force mixes. It 
looked at a current baseline, as well as six different force 
mixes, and looked at the ability of those force mixes to 
actually reduce risk in the Arctic. And it also looked at some 
of the costs associated with those different force mixes.
    Regarding icebreakers, there has been three recent studies 
to look at the icebreakers, including the ``High Latitude 
Study.'' There was also a recent Coast Guard icebreaker 
recapitalization report, again done by a contractor. And it has 
already been mentioned there was a DHS IG report last year on 
icebreakers.
    All three of these reports discuss the current state of 
Polar Icebreakers. Only one of our three Polar Icebreakers is 
currently operational. The two contractor studies, both the 
recapitalization report and the ``High Latitude Study,'' called 
for new icebreakers to be built, with options ranging from 2 
new icebreakers, heavy class, up to 10 new icebreakers, with 6 
of those being heavy class, and 4 of those being the medium 
class, which would be needed to meet the complete suite of U.S. 
Government requirements, including those of the Department of 
Defense.
    Obviously, new icebreakers will cost a lot of money. Even a 
single icebreaker currently doesn't fit within the Coast Guard 
budget framework, as we have talked about. The estimated cost 
of some of the options I have talked about from the 2 to 10 
icebreakers, range from $2 billion to $7 billion.
    For a number of years, GAO has been helping this committee 
and other committees look at Coast Guard's funding for 
acquisitions, including the Deepwater Program, and talked about 
how those programs are really crowding out some of the other 
important acquisition needs, as well as polar and domestic 
icebreaking.
    The recapitalization report that was recently done came to 
the same conclusion, that the funding was not available within 
Coast Guard's budget, and made some other suggestions, such as 
having DOD fund the new icebreakers. That is how the most 
recent icebreaker, the Healy, was funded, out of the Department 
of Defense's U.S. Navy shipbuilding budget.
    Regarding interagency coordination, our 2010 report had 
quite a lot of detail on Coast Guard efforts to coordinate with 
not only other Federal agencies, but the State, local, private 
sector, native groups, as well as the international 
organizations. Our assessment was generally pretty positive on 
the level of that coordination.
    Since publication of that report, Coast Guard is in a new 
coordination effort with the Navy. This is called the 
Capabilities Assessment Working Group. And this group is 
looking at for both the Navy and the Coast Guard together, what 
are some of their short-term investment priorities. That group 
is planning to put a white paper out later this year.
    As part of other work we are doing for the Armed Services 
Committee, we are looking more at that group, and we will 
report on that early next year.
    And, in closing, I will be happy to respond to any 
questions. Thank you.
    Mr. Young. Thank you, Mr. Caldwell. Mr. Whitcomb.
    Mr. Whitcomb. Chairman Young, Ranking Member Larsen, 
distinguished members of the subcommittee, my name is Dave 
Whitcomb, I am the chief operating officer at Vigor Industrial, 
the largest private sector construction, repair, and 
maintenance company in the Pacific Northwest.
    Through top Pacific shipyards in Seattle which Vigor 
acquired earlier this year, our shipyards have been closely 
involved with the maintenance and repair of the Coast Guard 
icebreakers Polar Star and Polar Sea, since they were 
commissioned in the late 1970s. We have also maintained the 
medium Coast Guard cutter icebreaker, The Healy. In my 
testimony today I want to describe the condition of the 
existing ships, what can be done economically to ensure that 
those assets continue to perform their missions, and what the 
alternative of constructing new heavy Polar Icebreakers would 
entail and cost.
    Let me begin with the single most important point of my 
testimony: the hulls and frames of the Polar Star and the Polar 
Sea are perfectly sound and capable of continuing to perform 
icebreaking for the foreseeable future.
    To fully appreciate why this matters, and what the unique 
value of these ships truly is, it helps to understand what goes 
into building them. The internal frames of the ships are 
comparable to the studs or the girders on a building. On the 
Polar Sea and the Polar Star the frames of the vessel are about 
16 inches apart. On a National Security Cutter--let me back up.
    Those are--they are 30 inches deep, they have a 4-inch face 
frame at the top of the frame, and that leaves an effective 
space between them of 12 inches. By comparison, a National 
Security Cutter spacing of the frames is 27 inches in the 
extreme bow of the vessel, and 49 inches in the rest of the 
ship. It gives you an idea of the difference in the build of 
the two vessels.
    On the Polar Sea and the Polar Star, the steel plating in 
the ice belt of the hull is 1\3/4\ inches thick, compared to 
\5/16\ and \3/8\ inches thick on a National Security Cutter. I 
have two pieces of steel that I would like to pass forward to 
the committee afterwards, to give you an idea of the difference 
of those two vessels.
    Consider what it takes to fabricate and bend steel that is 
1\3/4\ inches thick. Also consider that to weld the framing to 
the hull plating, the steel plating has to be heated to high 
temperatures, then highly skilled welders have to go in to 
those heated and confined spaces and weld that steel together. 
It is arduous, difficult, and expensive work. Indeed, on the 
initial build at Lockheed, some of the most experienced workers 
simply walked off the job because the conditions were so 
challenging.
    What all this means is that it is extremely expensive and 
demanding to build heavy Polar Icebreakers, something our 
Nation has not done now for more than 30 years. That is why the 
existing ships are unique and hard to replace.
    I want to emphasize that we do believe there is a need to 
build new heavy icebreakers, and we urge the Congress and the 
administration to work together to quickly authorize and fund 
such a project. This position is also held by the Shipbuilders 
Council of America, which represents more than 50 companies and 
120 shipyards across America.
    But as members of this committee can appreciate, if even 
the Congress immediately began the process of authorizing and 
funding new heavy icebreakers, fully functioning replacements 
would not likely be mission ready for 10 years or longer. What 
is more, realistic estimates indicate that the cost of a new 
heavy icebreaker would likely be at least $1 billion.
    Until Congress and the administration provide for such 
funding, and the replacements are actually in the water, we 
must have the capability to complete the vital missions of our 
Polar Icebreakers--that our Polar Icebreakers have performed 
for decades.
    The good news is that the Coast Guard cutter, Polar Star, 
is now nearing completion of its reactivation, which will 
prepare it to function effectively for at least a decade or 
more, assuming regular maintenance. The other good news is that 
the Polar Sea also can be restored to full mission readiness 
with a comparable longevity at relatively modest cost, and in a 
reasonably short period of time.
    Vigor Industrial estimates that bringing the Polar Sea up 
to an operationally capable condition would require 
approximately $11 million. We base this on the fact that we 
have done comparable work on the Polar Star already, and are 
well aware of what is required. My written statement also 
includes details of that estimate. This work would require 
approximately 2 years to complete, and might well be finished 
sooner, dependent upon the availability of key components.
    The take-home message is that for just over 1 percent of 
the cost of a new vessel, and at a 2-year versus 10-year 
minimum time horizon, the United States of America would have a 
second fully functioning heavy icebreaker able to complete 
vital missions under our own flag for at least a decade.
    Others today have spoken of the dangers inherent in 
relinquishing our icebreaking capacity to former adversaries or 
economic competitors. Our message today, from a shipbuilding 
and repair perspective, is simple: there is an affordable, 
proven, prompt, and practical alternative that should not be 
squandered.
    Thank you for the opportunity to speak with you today. I 
have provided additional information in my written testimony, 
and would be glad to answer your questions.
    Mr. Young. Rear Admiral Garrett.
    Admiral Garrett. Good afternoon, Mr. Chairman, Ranking 
Member Larsen, and distinguished members of the committee. 
Thank you for the opportunity to participate in today's 
hearing.
    As a Coast Guard officer, I spent much of my career serving 
in the Nation's multimission Polar Icebreaker fleet, operating 
in both polar regions, as well as supporting these operations 
in staff assignments ashore. For most of my career, polar 
operations were usually conducted for defense support and 
science programs sponsored by other agencies. But 
transformational changes occurring in the Arctic now 
extensively affect most of the Coast Guard's statutory 
responsibilities.
    The Coast Guard has made a valiant effort, as Admiral Papp 
described, to project an Arctic presence deploying cutters, 
boats, aircraft, and specialized teams to Arctic Alaska to test 
equipment capabilities and procedures, and enhance Arctic 
operational experience. Unfortunately, the most critical and 
effective capability that the Coast Guard could apply to its 
increasing Arctic responsibilities is largely missing from the 
scene. At a time of growing need, our Polar Icebreaker 
capabilities are steadily drifting into obsolescence.
    With only the icebreaker Healy in operational condition 
during the upcoming year, consequences of icebreaker 
disinvestment are beginning to emerge. The Coast Guard has been 
unable to deploy an icebreaker for Arctic multimission purposes 
for over 2 years, and planned science missions for Polar Sea 
have had to be canceled. Perhaps most ominously, a Coast Guard 
icebreaker will not be available for critical U.S. Antarctic 
program support 2 months from now.
    When Healy is engaged in dedicated science support or 
undergoing maintenance, the Coast Guard has no Polar 
Icebreakers for other Arctic or Antarctic contingencies or 
missions. These mission gaps will be somewhat mitigated in 
2013, at least for the short term, when Polar Star is scheduled 
to return to service.
    Although I was privileged to serve in both Polar Class 
ships, and am very proud of the 70 years they have collectively 
served the Nation, the Coast Guard will nevertheless be 
depending on 1960s technology that is expensive to operate and 
subject to the risk of additional failure.
    During the ``High Latitude Study,'' as we considered 
present and future Arctic demands on the Coast Guard, it became 
evident to me that the Coast Guard's lower 48 footprint--that 
is geographically distributed logistics bases, boat stations, 
air stations, and sector offices--would be an extremely 
expensive and inappropriate blueprint for needs in Arctic 
Alaska.
    Moving sea ice, shallow coastal waters, and permafrost make 
vessel mooring facilities, as one example, very difficult to 
engineer. Moreover, the seasonality of operational demand and 
long distances would also make fixed installations less 
efficient. Instead, again, as Admiral Papp mentioned, a Polar 
Icebreaker patrolling offshore provides an ideal arctic mobile 
base. With helicopters, boats, cargo space, heavy lift cranes, 
extra berthing, configurable mission spaces, and command 
control and communications facilities, an icebreaker can 
respond to contingencies and be augmented with special teams 
and equipment, as needed.
    This is not to deny that some shore infrastructure would be 
needed, but an icebreaker can move to where the action is, 
carry out Coast Guard missions, engage with local communities 
and other Federal, State, and local agencies, exercise response 
plans, and simultaneously provide a visible national presence.
    What is clearly called for is a continued level of 
icebreaker capability to accommodate the developing Arctic 
demand for Coast Guard services, as well as to fulfill the need 
for broader national sovereignty and presence. We must maintain 
near-term capabilities, keeping Polar Star and Polar Sea 
available for polar operations, and move forward to build two 
new icebreakers that can meet future needs more effectively and 
more efficiently.
    These are among the recommendations of the National 
Research Council's 2007 report on icebreaker capability. The 
subsequent ``High Latitude Study'' and icebreaker 
recapitalization analysis further inform the issue and provide 
a sound basis for an icebreaker acquisition effort.
    A review of U.S. requirements would not be complete without 
examining how other nations are confronting developments in the 
Arctic. Our declining polar capabilities place us distinctly in 
the minority, as has been mentioned earlier. The other Arctic 
nations are actively acquiring new ice capable assets, most 
notably the multivessel building programs of Russia and our 
Canadian allies.
    Non-Arctic nations, most notably China, are building 
icebreaking ships and have announced plans for increased Arctic 
involvement. Even smaller nations, such as South Korea, South 
Africa, and Chile have recently acquired or are planning new 
polar ships.
    In summary, I believe that if the United States is to 
protect its Arctic interests and retain its leadership role in 
both polar regions, the Coast Guard must have the ability to be 
present in those places today and in the future.
    Thank you, Mr. Chairman and members of the committee, for 
considering these important issues, and for the opportunity to 
be here today.
    Mr. Young. I thank the panel. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. Admiral Garrett, can 
you talk a little bit about your assessment of the pros and 
cons of leasing versus owning?
    Admiral Garrett. Yes, sir. The perspective I could offer 
was when I was a member of the Commandant's staff back in the 
late 1980s here in Washington. We were directed to pursue 
exactly the same sort of lease versus buy analysis. And, in 
fact, the Coast Guard had a two-track procurement strategy to 
compare leasing a new Polar Icebreaker or buying it.
    After over a year of analysis, studies, discussion with 
other agencies, looking around, what became clear was: number 
one, there was no off-the-shelf asset readily available; and 
secondly, that in the long run when you cost it all out and 
calculate the value of the stream of payments--leasing would 
actually cost more.
    And when we did the recapitalization analysis recently we 
also reviewed leasing again. I think the findings in that 
report indicate leasing is more expensive, over the life of the 
vessel, by about 12 percent.
    Mr. Larsen. Why is that? Or why did you find that?
    Admiral Garrett. A couple of technical things. First of 
all, whoever builds the ship--and again, this would have to be 
a ship built for the Coast Guard, since there is not something 
off the shelf out there that you could lease--whoever builds it 
has to raise capital. And nobody can raise capital more 
inexpensively than the Federal Government.
    Secondly, whoever leases the ship is obviously going to 
want to make a profit on that lease. As Admiral Papp referred 
to leasing a car, you know, there is going to be a profit 
involved. And so, if you take the net present value of all 
those payments, you come out with a more expensive package if 
you are comparing the same vessel.
    The other issue I think is more intangible, and that is 
just the fact that we are really not talking about an 
auxiliary, like the Navy leases, a supply ship or something 
like that. We are talking about a frontline Coast Guard capital 
asset, if you will, a capital ship that is going to be doing 
frontline Government missions, projecting U.S. sovereignty. 
And, as you know, the Navy doesn't lease those kind of ships 
for its frontline fleet, and the Coast Guard doesn't lease 
those kind of ships for its basic mission capabilities, and 
that is what we are really talking about, in terms of the ship 
we need here.
    So, while a lease may look attractive, I think there are 
several things that indicate it may not be the right way to go. 
And I think that is what we came down to in the recent 
analysis. And again, this was all documented in the past. That 
late 1980s analysis was resummarized in the President's 1990 
report to Congress, which basically says leasing is more 
expensive and is not the way to go for a new ship. And that 
report cleared the way for the ship that actually became the 
Healy.
    Mr. Larsen. OK. One final question for you, and then Mr. 
Caldwell, I want you to answer it as well. But it has--I think 
in your testimony or in the report that you are associated with 
you did conclude--I don't know if it is a conclusion, but you 
did note that it is expensive to have basing in the lower 48, 
relative to Arctic Alaska, and that is a cost of operation for 
us thinking about how to think about a footprint up there. Is 
that about right?
    Admiral Garrett. Yes, sir. As we did the ``High Latitude 
Study'' and looked at how can the Coast Guard carry out its 
responsibilities and provide the services to the people that 
live in Arctic Alaska, that lower 48 footprint where we build 
lots of little stations and air stations and have lots of 
physical infrastructure, is going to be very hard to reproduce 
up there. Very shallow coastal waters, ice that moves in and 
out seasonally, permafrost, all those kind of things, and then 
just expensive building costs make some kind of a permanent 
footprint very expensive.
    As Admiral Papp mentioned, having a mobile way of coming in 
and carrying out those seasonal missions as you need to do them 
may be a more cost-effective way of doing it, over the long 
term. This is not to say you don't need some infrastructure 
like communications and perhaps some aircraft support, things 
like that.
    Mr. Larsen. Mr. Caldwell, did you all look at that in this 
GAO study? I don't recall----
    Mr. Caldwell. We haven't done an independent look at the 
different footprint options. We did look pretty closely at the 
``High Latitude Study'' and what they laid out. I think that 
the Corps of Engineers or people with that kind of expertise 
would be the ones to look at it, in terms of the actual cost of 
a deepwater port that you could use year-round. You have very 
shallow waters once you get up to the Arctic Circle and the 
northern slope of Alaska. Because of the very shallow draft 
there, building a deepwater port is a challenge.
    The ``High Latitude Study'' did provide some options. Some 
of those are seasonal. As Admiral Papp said, there is a 
seasonal nature to the risks up there, and the activity up 
there, and we don't foresee that as changing for some time. The 
oil exploration is the one aspect, once you get into the 
production phase, which would presumably go year-round.
    Finally, you need to think about what kind of Coast Guard 
presence is needed. You can provide a search and rescue 
presence with some kind of aircraft assets. But for more 
serious or prolonged operations up there, you are going to need 
surface assets. And there would be some advantages to those 
being mobile. The ``High Latitude Study'' actually looked at 
where you would post those assets. Some would be in the 
Beaufort Sea, some would be toward Barrow and the opening of 
the Bering Sea. Some would be in the Chukchi Sea.
    Mr. Larsen. Yes. One final question right now--I am sure 
the chairman has a few questions and I will defer to him after 
this last question.
    But for Mr. Whitcomb, this $11 million number caught us--
you know, it is a very surprising number that you are making 
the point, that for $11 million you can get the ship out and 
running. But does that only include making it operational to be 
on the water and functioning? Because it has to be outfitted 
with the systems to, you know, be integrated in communications 
systems with the Coast Guard, its--are you just looking at it 
from a strictly shipbuilding perspective, a ship that can get 
out in the water and go from point A to point B? Because there 
is more cost to--for a cutter, there is more cost to that, from 
our perspective.
    Mr. Whitcomb. The $11 million number is based on the work 
that we are currently doing on the Polar Star. So, as it 
relates to the communications or electronics of the vessel, it 
is not specific to those items. But the numbers are--the 
similar numbers that we are using currently to put the Polar 
Star back into service.
    Mr. Larsen. So----
    Mr. Whitcomb. So it is the--it is mechanical-type systems.
    Mr. Larsen. OK. Right, OK. That is clear. I note that you 
have an estimate as part of your written testimony. Probably 
want to get a little more flesh on that for us to consider.
    Mr. Whitcomb. I can get you that and forward it to you.
    Mr. Larsen. Yes, that would be great. And I probably have 
some more questions, but I will defer to the chairman.
    Mr. Young. Mr. Whitcomb, I am anxious to see that, too, 
because what I have been told, $11 million basically gets the 
ship re-engined, and that is all it does. You don't put in new 
air conditioning or--that is an old ship. And it might be 
floatable, it might be able to do the duty, but I am not sure I 
would want to put the crew back on it.
    That is something we might want to consider, because if we 
can do that, we have to look at that aspect. Because we are not 
going to build any new ships very soon in this Congress, and we 
should do it. But we do need that capability. Heating breaks 
down, what have we got?
    So my question to you is that $11 million is--you may be 
doing it to Polar Star, but are you upgrading anything? The 
galley, or anything else?
    Mr. Whitcomb. Sir, the $11 million, if you want me--would 
you like me to go through the highlights of that $11 million?
    Mr. Young. Yes, yes.
    Mr. Whitcomb. It is $5 million for the engine overall, it 
is--there is a chunk of it in there for replacing the obsolete 
cranes that are on there. And there is $3 million for 
completing the modifications to the controllable pitch 
propellers. A prototype was already done on the Polar Sea, and 
that modification is currently being done on the Polar Star. 
And those are the key components.
    The Polar Sea went through a refit in 2006, or finished a 
refit in 2006. So some--I don't know the overall condition of 
things like heating and air conditioning and some of the 
inhabitability pieces. We could look at that, if you would like 
further information on it.
    Mr. Young. I think we ought to, because I wasn't excited 
about decommissioning that ship. I think it probably came from 
the Department of Homeland Security, which is not one of my 
favorite agencies, I have to say that. And to take and have a 
backup is crucially important. We are going to have the Polar 
Star and the Healy, and we should have the other one, because 
things do happen.
    Admiral, do you want to----
    Admiral Garrett. Yes, Mr. Chairman, could I comment on 
that?
    Mr. Young. Yes.
    Admiral Garrett. The Polar Sea, when it came up with the 
engine cylinder problems a year-and-a-half ago or so, was fully 
operational. And, in fact, it had undergone, as Mr. Whitcomb 
said, $35 million to $40 million worth of upgrades. So it was a 
substantially upgraded ship at the time the engine problems 
laid it up. And it was fully operational and actually doing 
Arctic missions while the Polar Star was in a layup condition 
at the pier.
    Just before the Polar Sea's engine problems were 
discovered, the Polar Star had gone into the yard to begin this 
full refurbishment work. But the Polar Sea has already had a 
substantial amount of that. And the items that Mr. Whitcomb 
identifies are the last remaining increments of those upgrades.
    So it is not like you have an old ship that you have got to 
start from scratch with. You basically have a fully operational 
ship that is lacking some engine overhauls and a couple of 
other items that the Star is getting in her refit.
    Mr. Young. Well, I am happy to hear that. I mean we may 
relook at this issue, because like I say, if we have to have 
that backup and all it takes is $11 million, that is not even a 
spit drop. And make an operational vessel, as long as it has 
got refitting to take place to do it. I mean that--this is new 
to me, and I do thank both of you for that, because that is 
something that can be done, you know.
    Mr. Larsen, I am about ready to get out of here. You got 
any more questions?
    Mr. Larsen. For Mr. Caldwell, in your testimony, in the 
last part of it, you consider the interagency cooperation and 
you mention some studies or--not even studies, white papers--
that might come up in the next year, early next year. Could you 
review those for the subcommittee, and what we should expect to 
see?
    Mr. Caldwell. The Capabilities Assessment Working Group 
white paper is not done yet, so we have----
    Mr. Larsen. Yes.
    Mr. Caldwell [continuing]. Not reviewed it. We expect, 
since it was supposed to be out late this year, that by the 
time myself and my colleagues on GAO's defense team do that 
report in January, we will have a better picture of what that 
might be.
    Mr. Larsen. Yes, could you just review what that is, again, 
for us?
    Mr. Caldwell. It is called the Capabilities Assessment 
Working Group, and it is a group of the Department of Defense 
and Coast Guard, trying to identify what are the most critical 
short-term investment needs. I don't know whether they will 
make recommendations as specific as which budget year, and 
which agency's budget will pay for such investments.
    But obviously, those are the key questions. I think we know 
what needs to be done, in the short term--or in the longer 
term. It is just, at this point, a question of figuring out how 
we are going to pay for it, and under what mode of ownership.
    Mr. Larsen. All right. Thank you.
    Mr. Young. I want to thank the panel. You have been 
informative, and we have got a problem; we will try to solve 
it.
    This meeting is adjourned.
    [Whereupon, at 12:53 p.m., the subcommittee was adjourned.]

</pre></body></html>
